No. 19-1006
INTHE

$Upreme q[ourt of tbe Wniteb $tates
FACEBOOK, INC., AND TWITTER, INC.,

Petitioners,
V.

SUPERIOR COURT OF SAN FRANCISCO COUNTY,
DERRICK D. HUNTER, AND LEE SULLIVAN,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 27th day of April, 2020, I caused an electronic version of the Reply Brief for
Petitioners to be transmitted to the individuals identified below, pursuant to Rule 29.5
of the Rules of this Court and this Court's April 15, 2020 Order authorizing electronic
service upon agreement of the parties. I further certify that I caused three copies of the
Reply Brief for Petitioners to be served by third-party commercial carrier on Respondent
Superior Court. All parties required to be served have been served.

Counsel of Record for Respondent Lee Sullivan:
Stuart Banner

UCLA SCHOOL OF LAW

405 Hilgard Ave.
Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu

Counsel for Respondent Derrick D. Hunter:
Bicka Barlow

Susan B. Kaplan

LAW OFFICE OF BICKA BARLOW

LAW OFFICE OF SUSAN B. KAPLAN

2358 Market St, Second Floor
San Francisco, CA 94114
(415) 553-4110
bickabarlow@sbcglobal.net

214 Duboce Ave
San Francisco, CA 94103
(415) 271-5944
sbkapl@yahoo.com

Jose Pericles Umali
LAW OFFICE OF JOSE PERICLES UMALI

507 Polk St, Suite 340
San Francisco, CA 94102
(415) 398-5750
umali-law@att.net

Counsel for the City and County of San Francisco:
Nathan A. Quigley
OFFICE OF THE DISTRICT A'ITORNEY

350 Rhode Island St, North Building,
Suite 400N
San Francisco, CA 94103
(628) 652-4000
nathan.quigley@sfgov.org

Pro Se Respondents:
Hon. Charles Crompton

Clerk of Court

SUPERIOR COURT OF SAN FRANCISCO

CALIFORNIA COURT OF APPEAL, FIRST
DISTRICT, DIVISION 5

COUNTY

850 Bryant St, Department 19
San Francisco, CA 94103
(415) 551-4001

350 McAllister St
San Francisco, CA 94102
(415) 865-7300

Served by third-party commercial carrier

Served via Truefiling

2

